               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Assessment of Overall Plant
               Efficiency 2013

               Management Advisory




                                         September 26, 2013

Report Number NO-MA-13-007
                                                                   September 26, 2013

                                                               Assessment of Overall
                                                                Plant Efficiency 2013

                                                        Report Number NO-MA-13-007



BACKGROUND:
In a prior review, we reported on fiscal     1.6 percent over the prior fiscal year.
year (FY) 2011 plant efficiency and          Part of the decrease in productivity was
recommended the U.S. Postal Service          due to the plants processing more
reduce more than 14 million workhours.       packages in FY 2012, as a percentage
The goal of the 2011 review was to           of total mail volume. Processing
report on the Postal Service’s efforts to    packages decreases overall productivity
‘raise the bar’ on productivity levels for   because it was more labor intensive to
those plants that were the least             sort packages than to sort other types of
productive in the network nationwide.        mail.
We took a similar approach in this
review.                                      We found the Postal Service had not yet
                                             fully adjusted workhours in response to
Our objectives were to follow up on the      declining mail volume or achieved all
Postal Service’s progress in reducing        possible efficiencies in mail processing
workhours, based on recommendations          operations. Also, management had not
made in our prior report, and to assess      evaluated operational efficiency by
the efficiency of the processing and         assessing performance, based on
distribution network for FY 2012.            median productivity for each plant
                                             grouping. Therefore, the Postal Service
WHAT THE OIG FOUND:                          used over 14 million workhours more
The Postal Service made substantial          than necessary to process mail volume.
progress by reducing workhours in the
network from the previous year. Plants       WHAT THE OIG RECOMMENDED:
that were the least productive reduced       We recommended the vice president,
more than 3.4 million workhours,             Network Operations, reduce 14,364,398
achieving 23.9 percent of the                workhours with an annual associated
recommended workhour savings.                economic impact of $628,670,104.
                                             These workhour reductions are to be
The Postal Service made these                completed no later than FY 2018. We
workhour reductions while increasing         also recommended that management
service scores from FYs 2011 to 2012.        periodically evaluate operating efficiency
In addition, the Postal Service reduced      by assessing performance against the
overtime at plants by more than 13           median productivity level for each plant
percent compared to the prior year.          grouping.

In FY 2012, productivity in all plants       Link to review the entire report
decreased by slightly more than
September 26, 2013

MEMORANDUM FOR:             DAVID E. WILLIAMS, JR.
                            VICE PRESIDENT, NETWORK OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory – Assessment of Overall
                            Plant Efficiency 2013
                            (Report Number NO-MA-13-007)

This report presents a follow up on the U.S. Postal Service's progress in reducing
workhours based on the workhour recommendation made in a prior report, as well as
the results of our assessment of the overall efficiency of the processing and distribution
network for fiscal year 2012 (Project Number 13XG029NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Assessment of Overall Plant Efficiency 2013                                                                       NO-MA-13-007


                                               TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Efficiency of Operations .................................................................................................. 2

   Workhour Reductions and Service .............................................................................. 2

   Economic Conditions ................................................................................................... 3

   Plant Consolidations .................................................................................................... 3

   Potential Sources of Workhour Reductions ................................................................. 3

   Reduction in Overtime ................................................................................................. 3

   Reduction in Stand-By Time ........................................................................................ 4

   Automated and Mechanized Equipment ...................................................................... 4

   Manual Operations ...................................................................................................... 4

   Allied Operations ......................................................................................................... 5

   Indirect/Related Operations ......................................................................................... 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Sources of Workhour Reduction by Labor Distribution Code .................... 22

Appendix C: Monetary Impact ....................................................................................... 29

Appendix D: Management's Comments ........................................................................ 30
Assessment of Overall Plant Efficiency 2013                                                                   NO-MA-13-007



Introduction

This report presents a follow up on the U.S. Postal Service's progress in reducing
workhours based on recommendations made in our prior report 1 and our assessment of
the overall efficiency of the processing and distribution network for fiscal year (FY) 2012
(Project Number 13XG029NO000).

In FY 2012, we reported on efficiency levels and mail volume at processing and
distribution centers (P&DCs) and processing and distribution facilities (P&DFs) and
recommended the Postal Service reduce more than 14 million workhours by FY 2014.
The goal of the previous effort was to report on the Postal Service’s efforts to ‘raise the
bar’ on productivity levels for those plants that were the least productive in the network
nationwide. We took a similar approach in this report.

The Postal Service faces significant financial challenges, ending FY 2012 with a net
loss of $15.9 billion and reaching its statutory borrowing limit of $15 billion. Without the
expenses associated with the Postal Service Retiree Health Benefits Fund (PSRHBF),
the agency would have ended FY 2012 with a net loss of $4.8 billion. 2 In addition, the
Postal Service ended Quarters (Q)1 and 2, FY 2013, with a combined net loss of
$3.1 billion, $2.8 billion of which were expenses associated with the PSRHBF. Without
the PSRHBF expenses, the combined loss would have been about $300 million.

Conclusion

The Postal Service made substantial progress by reducing workhours in the network
from the previous year. Plants that were the least productive in FY 2011 reduced more
than 3.4 million workhours, achieving 23.9 percent of the recommended workhour
savings.

The Postal Service made these workhour reductions while achieving increases in
service scores from FYs 2011 to 2012. See Appendix A for our detailed analysis of this
topic. In addition, we found the Postal Service reduced overtime at the plants by over
13 percent compared to FY 2011.

However, the Postal Service was slightly less efficient in FY 2012 than it was in
FY 2011. For example, first-handling piece (FHP) 3 productivity 4 for all plants decreased
by 1.6 percent over the prior fiscal year. We found the amount of package mail, as a
percentage of total volume, increased from 1.9 percent in FY 2011 to 2.2 percent in
FY 2012. This contributed to the decline in productivity from FYs 2011 to 2012, as it is
1
  Assessment of Overall Plant Efficiency 2012 (Report Number NO-MA-12-001, dated April 27, 2012).
2
  Due to passage of Public Law 112-33, which changed the due date of the scheduled PSRHBF prefunding payment
of $5.5 billion from September 30, 2011, to September 30, 2012, PSRHBF expenses were zero in 2011. As a result,
total PSRHBF expenses in 2012, including the previously scheduled prefunding payment of $5.6 billion due by
September 30, 2012, were $11.1 billion.
3
  A letter, flat or parcel that receives its initial distribution at a Postal Service facility. FHP records mail volume at the
operation where it receives its first distribution handling.
4
  We calculated FHP productivity by dividing FHP volume by Function 1 mail processing workhours.
                                                                   1
Assessment of Overall Plant Efficiency 2013                                                             NO-MA-13-007



more labor intensive to sort packages than it is to sort other types of mail. See
Appendix A for additional information.

We found that the Postal Service had not yet fully adjusted workhours in response to
declining mail volume or achieved all possible efficiencies in mail processing operations.
Also, management has not evaluated operational efficiency by assessing performance
based on median productivity for each plant grouping.

The Postal Service could improve operational efficiency by reducing more than
14.3 million workhours. This would allow the Postal Service to achieve at least median
productivity levels in the network and avoid costs of about $628 million. See Appendix C
for a detailed explanation of this cost avoidance.

Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. For example, if the 130 plants with below-median productivity
levels in FY 2012 achieved just the median productivity level for each respective plant
group, 5 the Postal Service could realize workhour savings of more than 14.3 million.
See Appendix A for our detailed analysis of this topic.

Workhour Reductions and Service

The Postal Service achieved workhour reductions in FY 2012. For instance, from
FYs 2011 to 2012, management used 5 million fewer workhours in mail processing. 6
Plants that had below-median productivity levels in FY 2011 accounted for 3.4 million
reduced workhours and achieved 23.9 percent of the recommended workhour savings.

The Postal Service reduced workhours in FY 2012, while increasing service scores in
the External First-Class (EXFC) categories of overnight, 2-day, and 3-day service. For
example, EXFC service scores for overnight, 2-day, and 3-day service in FY 2011 were
96.28, 93.49 and 91.18, respectively, compared to 96.59, 94.96 and 92.36 in FY 2012.
In addition, the Postal Service improved its Customer Experience Measurement (CEM)
scores in the residential and business categories in all quarters from FYs 2011 to 2012.
For example, in Q1, FY 2012, the residential CEM score was 88.6 percent, an increase
of 2.0 percent from the prior fiscal year. See Appendix A for our detailed analysis of
these topics.




5
  We divided the facilities that process mail into seven groups ranked according to FHP mail volume in FY 2010 (see
Appendix A for more information).
6
  These hours are recorded in a category referred to as Function 1. Total Function 1 hours include network
distribution centers (NDCs), international service centers (ISCs), logistics and distribution centers (L&DCs), Priority
hubs, P&DCs, and P&DFs.

                                                           2
Assessment of Overall Plant Efficiency 2013                                   NO-MA-13-007



Economic Conditions

The Postal Service faces the challenge of making additional workhour reductions while
continuing to deal with declining mail volume and a deteriorating financial condition. The
Postal Service ended FY 2012 with a net loss of $15.9 billion and reached its statutory
borrowing limit of $15 billion. Without the expenses associated with the PSRHBF, the
agency would have ended FY 2012 with a net loss of $4.8 billion. In addition, the Postal
Service experienced an overall volume decrease of more than 8 billion mailpieces from
FYs 2011 to 2012, a decrease of 5 percent. 7 Further, the agency ended Qs1 and 2,
FY 2013 with a combined net loss of $3.1 billion, $2.8 billion of which were expenses
associated with the PSRHBF. Without the PSRHBF expenses, the combined loss would
have been about $300 million. See Appendix A for our detailed analysis of this topic.

Plant Consolidations

The Postal Service reduced the size of the mail processing network from FYs 2011 to
2012. In FY 2011, the Postal Service completed 48 full and partial plant consolidations.
Six of the seven plant groups experienced a rise in productivity in the plants gaining
mail volume from consolidations. This indicated the plant consolidation strategy has
been generally successful. See Appendix A for our detailed analysis of this topic.

Potential Sources of Workhour Reductions

We identified six major areas where the Postal Service could realize workhour savings:

     Overtime.
     Stand-By Time.
     Automated and Mechanized Equipment.
     Manual Operations.
     Allied Operations.
     Indirect/Related Operations.

Reduction in Overtime

Management decreased overtime at all plants by over 13 percent in FY 2012, compared
to FY 2011; however, further opportunities exist to reduce overtime. In FY 2012, the
Postal Service generally used a higher percentage of overtime workhours at plants with
below-median productivity levels than in those with above-median productivity levels. If
plants below the median achieve the average overtime percentage of the above-median
plants, the Postal Service would realize savings of more than 1.2 million overtime
workhours. See Appendix A for our detailed analysis of this topic.




7
    Based on the Postal Service's annual report and Form 10-K for FY 2012.

                                                          3
Assessment of Overall Plant Efficiency 2013                                                             NO-MA-13-007



Reduction in Stand-By Time

Plants operating at below-median FHP productivity levels generally used a higher
amount of mail processing stand-by time. 8 This indicates that management might not be
properly scheduling and staffing employees to match workload.

As an example, Group 1 plants 9 with above-median FHP productivity levels used
.08 percent of workhours in stand-by time operations and Group 1 plants below the
median used .17 percent of workhours in stand-by time operations. If Group 1 plants
below the median achieve the average stand-by time percentage of the above-median
plants, the Postal Service would realize savings of more than 55,000 workhours.
Further, if all plant groups below the median achieve the average stand-by time
percentage of the above-median plants, the Postal Service could save more than
129,000 workhours. See Appendix A for our detailed analysis of this topic.

Furthermore, we identified potential sources of workhour reductions by Labor
Distribution Code (LDC). These sources are discussed in Appendix B.

Automated and Mechanized Equipment

Plants that operated below-median FHP productivity generally had lower productivity in
automated and mechanized operations. 10 If all plants with below-median FHP
productivity levels increased the number of mailpieces handled per hour by operation to
the average of the plants with above-median FHP productivity, the Postal Service
could save more than 2.7 million workhours in automated operations and more than
753,000 workhours in mechanized operations. In addition, plants with below-median
productivity levels generally had higher jams per 10,000 pieces on delivery barcode
sorters (DBCS) and the automated flats sorting machine (AFSM) 100. Further, plants
with below-median productivity levels generally had higher reject rates on the
AFSM 100. This indicates that procedures for jogging and edging the mail may need
improvement. See Appendix B for our detailed analysis of this topic.

Manual Operations

Opportunities to improve efficiency in manual operations were twofold. First, plants with
productivity levels lower than the median also had lower productivity in manual
operations. The Postal Service could save more than 2.7 million workhours if plants with
below-median productivity levels increased the mailpieces handled per hour to the
average of the plants with above-median FHP productivity levels. See Appendix B for

8
  Stand-by time is tracked through operation 340. It is intended for short-term use in response to situations that are
not likely to continue. Institutional stand-by time is tracked through operation 603, and is used for employees placed
on stand-by under provisions in national labor agreements. Mail processing stand-by time is the total hours in these
two operation numbers.
9
  We developed seven plant groups based on FHP volume. The plants with the highest volume are designated as
Group 1.
10
   These operations include automated letter operations and the distribution of flat mail on automated and
mechanized equipment.

                                                           4
Assessment of Overall Plant Efficiency 2013                                                        NO-MA-13-007



our detailed analysis of this topic. Second, the Postal Service did not take full advantage
of automated and mechanized equipment and worked an excessive amount of mail
manually. The Postal Service’s manual sort target is only 2.5 percent of the total
letter volume and 6 percent of the total flat volume. The Postal Service could save
nearly 1.4 million workhours by using automation to sort letter and flat mail instead of
manually sorting it. See Appendix A for our detailed analysis of this topic.

Allied Operations

Plants with below-median productivity levels generally used a larger percentage of
workhours in allied operations 11 (called LDC 17) than plants with above-median
productivity levels. Allied operations represented the largest percentage (36 percent) of
workhour usage in mail processing operations in FY 2012. If plants below the median
achieve the average percentage of workhours used in allied operations of the above-
median plants, the Postal Service would realize savings of more than 3.3 million
workhours. This represents the greatest opportunity to improve efficiency and achieve
workhour reductions. See Appendix B for our detailed analysis of this topic.

Indirect/Related Operations

Plants with below-median productivity levels generally used a larger percentage of
workhours in indirect/related operations 12 (called LDC 18) than plants with above-
median productivity levels. Indirect/related operations represented 6.9 percent of
workhour usage in mail processing operations in FY 2012. If plants below the median
achieve the average percentage of workhours used in indirect/related operations of the
above-median plants, the Postal Service would realize savings of more than 1 million
workhours. See Appendix B for our detailed analysis of this topic.

In addition, as of January 2013, we found that 13,877 employees at plants with below-
median productivity levels were eligible to retire. This represents a potential annual
reduction of more than 24 million workhours if these employees retired. See Appendix A
for additional information.

The Postal Service addressed operational efficiency by reducing workhours to better
align with budgeted workhours. It reduced FY 2012 mail processing workhours by
2.3 percent from FY 2011 levels. However, we found the Postal Service had not yet fully
adjusted workhours in response to declining mail volume or achieved all possible
efficiencies in mail processing operations. Also, management had not evaluated
operational efficiency by assessing performance based on median productivity for each
plant grouping.




11
   These operations are recorded in LDC 17 and include mail preparation, presort operations, traying, sleeving,
opening, pouching, and platform operations.
12
   These operations are recorded in LDC 18 and include rewrap of damaged mail, Express Mail processing, empty
equipment processing, office work and recordkeeping, Registered Mail processing, and union steward time.

                                                        5
Assessment of Overall Plant Efficiency 2013                                  NO-MA-13-007




Recommendations

We recommend the vice president, Network Operations:

1. Reduce 14,364,398 workhours with an annual associated economic impact of
   $628,670,104. These workhour reductions are to be completed no later than
   FY 2018.

2. Periodically evaluate operating efficiency by assessing performance against the
   median productivity level for each plant grouping.

Management’s Comments

Management agreed with the recommendations and economic impact in the report.
Management stated they have made substantial progress in reducing mail processing
workhours in the last 5 years. Regarding recommendation 1, management agreed to
improve operational efficiency and reduce 14,364,398 workhours by September 2018.
Regarding recommendation 2, management stated that productivity targets are
established and will be reevaluated periodically. See Appendix D for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues indentified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                              6
Assessment of Overall Plant Efficiency 2013                                                      NO-MA-13-007




                               Appendix A: Additional Information

Background

Mail processing is an integrated group of activities 13 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
mail to P&DCs and P&DFs for processing and dispatch for a designated service area.
P&DCs report directly to area offices on mail processing matters. They also provide
instructions on preparing collection mail, dispatch schedules, and sort plan
requirements to associate offices and mailers.

The Postal Service compiles workhour, labor use, and other financial reports for
management use by functional category or LDC. 14 For example, LDC 11 records
workhours in automated letter operations, LDC 12 records workhours in distribution of
flat mail on automated and mechanized equipment and LDC 14 records manual sorting
of letters and flats. The Postal Service uses LDC 17 to record hours by employees
involved in allied operations or mail processing operations other than distribution, and it
uses LDC 18 to record indirect/related workhours.

The largest percentage of workhour usage in mail processing operations in FY 2012
was 36.4 percent in LDC 17, and the largest percentage of FHP volume in FY 2012 was
85.2 percent in LDC 11.

For our prior report, 15 and for the assessment of overall efficiency of the processing and
distribution network for FY 2012, we developed seven plant groups based on FHP mail
volume in FY 2010. Table 1 shows the mail volume breakdowns in each group and
Figure 1 shows the percentage of mail processing facilities in these groups.




13
   Culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.
14
   Mail processing operations are in the Function 1 category.
15
   Assessment of Overall Plant Efficiency 2012 (Report Number NO-MA-12-001, dated April 27, 2012).

                                                       7
Assessment of Overall Plant Efficiency 2013                                     NO-MA-13-007



             Table 1. FY 2010 FHP Mail Volume Breakdown by Plant Group

                           Plant               FHP Volume Range
                           Group                  (in millions)
                              1                  1,300 and above
                              2                    765 to 1,299
                              3                     476 to 764
                              4                     340 to 475
                              5                     221 to 339
                              6                     136 to 220
                              7                      0 to 135
                         Source: OIG and the Enterprise Data Warehouse (EDW).

                                Figure 1. Plant Groups Based on
                                      FY 2010 FHP Volume


                                          Group 7        Group 1
                                             8%           16%
                               Group 6
                                 13%
                                                                     Group 2
                                                                       16%
                           Group 5
                             15%
                                                             Group 3
                                              Group 4
                                                                  17%
                                               15%




                        Source: OIG and EDW.




                                                     8
Assessment of Overall Plant Efficiency 2013                                                        NO-MA-13-007



Objectives, Scope, and Methodology

Our objectives were to follow up on the Postal Service’s progress in reducing workhours
based on recommendations made in our prior report 16 and to assess the efficiency of
the processing and distribution network for FY 2012. To accomplish our objectives, we
identified trends in mail volume, workhours, overtime, and productivity for each of the
seven plant groups for FYs 2011 and 2012.

We conducted this review from March through September 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on July 30, 2013, and included their comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems, which included the Management Operating Data System,
the EDW System, Web Complement Information System (WebCOINS), and the
National Maintenance Activity Reporting System (nMARS). We did not test the validity
of controls over these systems. However, we verified the accuracy of the data by
confirming our analysis and results with Postal Service managers and other data
sources. We determined that the data were sufficiently reliable for the purposes of this
report.




16
     Assessment of Overall Plant Efficiency 2012 (Report Number NO-MA-12-001, dated April 27, 2012).

                                                         9
    Assessment of Overall Plant Efficiency 2013                                    NO-MA-13-007



    Prior Audit Coverage

                                    Report                                 Monetary Impact
        Report Title               Number         Final Report Date          (in millions)
Use of Non-Traditional           NO-AR-13-003         5/17/2013                  $30.6
Full-Time and Postal
Support Employee
Positions in Processing
Operations
Report Results:
If the Postal Service had hired postal support employees up to contract limits, it could have
reduced labor and overtime costs, resulting in savings of more than $30.6 million in FY 2012.
We recommended the Postal Service provide additional training to improve the utilization and
supervision of non-traditional full-time positions and periodically evaluate postal support
employee staffing to optimize usage of these employees. Management agreed with our
recommendations.

Supervisor Workhours           NO-MA-13-005             4/4/2013                    $12
and Span of Control
Report Results:
Although the Postal Service generally reduced supervisor workhours in relation to craft
employee workhours, it did not always achieve its span of control target. Specifically, we found
that, based on the 1:25 span of control target, there was a shortage of 412 regular supervisors
nationwide and an excess of 1.8 million replacement supervisor workhours used in FY 2012.
We recommended the Postal Service reevaluate span of control targets and determine the
appropriate targets, fill vacant supervisor positions to the appropriate span of control level and
reduce supervisor replacement workhours accordingly. We also recommended the Postal
Service ensure that span of control targets are achieved during the consolidation process to the
fullest extent possible. Management agreed with our recommendations.




                                                  10
    Assessment of Overall Plant Efficiency 2013                                NO-MA-13-007




                                                       Final Report    Monetary Impact
        Report Title          Report Number                Date          (in millions)
Assessment of Overall          NO-MA-12-001             4/27/2012            $665
Plant Efficiency 2012
Report Results:
The Postal Service made substantial progress by reducing workhours in the network from the
previous year. However, we found the Postal Service had not yet fully adjusted workhours in
response to declining mail volume because of poor economic conditions or achieved all possible
efficiencies in mail processing operations. We recommended the Postal Service reduce
14,268,171 workhours by FY 2014 and periodically evaluate operating efficiency. Management
agreed with our recommendations.

Assessment of Overall        NO-MA-11-004           5/20/2011                  $647.6
Plant Efficiency 2011
Report Results:
The Postal Service had not yet fully adjusted workhours in response to declining mail volume
because of poor economic conditions, nor did they achieve all possible efficiencies in mail
processing operations. We recommended the Postal Service reduce 14,017,630 workhours by
FY 2013 and periodically evaluate operating efficiency. Management agreed with our
recommendations.

Follow-Up on the           NO-MA-11-001            2/1/2011                  None
Assessment of Overall
Plant Efficiency 2010
Report Results:
The Postal Service made substantial progress by reducing workhours in the network from the
previous year. We made no recommendations in this report.




                                                  11
Assessment of Overall Plant Efficiency 2013                                                              NO-MA-13-007



As shown in the preceding table, we have conducted two overall efficiency reviews and
one follow-up review of mail processing operations in the past 3 years. In response to
our recommendations, management reduced workhours to better align with budgeted
workhours. Management agreed with the recommendations made in these reports.

In addition, the supervisor span of control review showed that too many replacement
supervisor workhours were used based on the span of control criteria. Using
replacement supervisors was not effective in improving overall plant performance
because they are not as effective as regular supervisors. In the audit of non-traditional
full-time and postal support employee positions, we found that not using flexible
employee positions to the fullest extent possible in FY 2012 meant the Postal Service
did not fully realize labor cost savings and overtime reduction.

Workhour Reductions and Service

Although the Postal Service successfully reduced workhours from FYs 2011 to 2012,
the reduction in workhours did not decrease at the same rate as FHP volume, resulting
in an overall decrease in operational efficiency. For instance, from FYs 2011 to 2012,
management reduced workhours by using 5 million fewer in mail processing, 17 a
decrease of 2.34 percent. However, FHP volume dropped by 8.4 billion mailpieces from
the prior fiscal year, a decrease of 4.39 percent. As a result, overall productivity
decreased from 894 mailpieces per hour in FY 2011 to 875 mailpieces per hour in FY
2012.

We found the amount of package mail, as a percentage of total volume, increased from
1.9 percent in FY 2011 to 2.2 percent in FY 2012. This contributed to the decline in
productivity from FYs 2011 to 2012, as it is more labor intensive to sort packages than it
is to sort other types of mail.

However, the Postal Service achieved service score increases in the EXFC service
categories of overnight, 2-day, and 3-day as shown in Table 2.

                        Table 2. FYs 2011 and 2012 EXFC Service Scores

                                     Overnight              2-Day                      3-Day
               Fiscal Year          Percentage           Percentage                 Percentage
                  2011                96.28%               93.49%                     91.18%
                  2012                96.59%               94.96%                     92.36%
           Source: EDW.

The Postal Service also improved CEM scores in the residential and business
categories in all quarters from FYs 2011 to 2012 as shown in Tables 3 and 4.

17
  These hours are recorded in a category referred to as Function 1, which includes hours worked at NDCs, ISCs,
L&DCs, Priority hubs, P&DCs, and P&DFs. There was a total of more than 5 million workhour savings in Function 1
hours, 4.89 million of which were attributable to all plants and 3.42 million of which were attributable to plants with
below-median FHP productivity.

                                                           12
Assessment of Overall Plant Efficiency 2013                                                             NO-MA-13-007



                    Table 3. FYs 2011 and 2012 CEM Scores – Residential

                             Q1         Q2         Q3         Q4
             Fiscal Year Percentage Percentage Percentage Percentage
                2011       86.6%      86.8%      87.2%      88.1%
                2012       88.6%      87.6%      88.7%      88.6%
             Difference     2.0%       0.8%       1.5%       0.5%
            Source: CEM.

                      Table 4. FYs 2011 and 2012 CEM Scores – Business

                             Q1         Q2         Q3         Q4
             Fiscal Year Percentage Percentage Percentage Percentage
                2011       82.3%      82.7%      83.2%      83.6%
                2012       84.1%      83.8%      84.1%      84.4%
             Difference     1.8%       1.1%       0.9%       0.8%
           Source: CEM.

In addition, the Ponemon Institute, LLC’s 18 Most Trusted Company for Privacy Study,
ranked the Postal Service as the fourth most trusted company and, for the 7th year in a
row, the most trusted government agency.

Economic Conditions

FY 2012 was a difficult year for the Postal Service. Total mail volume declined by more
than 8 billion pieces, or 5 percent, from 168.3 billion pieces in FY 2011 to 159.9 billion
pieces in FY 2012. In addition, total FY 2012 revenue declined by $488 million, or
0.7 percent, from $65.7 billion in FY 2011 to $65.2 billion in FY 2012. However, while
total mail volume and revenue declined, the package business grew by 7.5 percent, to
more than 3.5 billion pieces. Packages in FY 2012 represented about 18 percent of
Postal Service revenues.

The Postal Service concluded FY 2012 with a net loss of $15.9 billion, which included
$11.1 billion in mandated retiree health benefit payments. The agency also reached its
statutory borrowing limit of $15 billion. Further, the Postal Service concluded Qs1 and 2
of FY 2013 with a combined net loss of $3.1 billion, $2.8 billion of which were expenses
associated with the PSRHBF. Given the Postal Service's current financial situation, the
postmaster general told a House Committee on April 17, 2013, that the Postal Service is
operating with a broken business model and the gap between revenues and costs will
only get worse in the coming years unless the laws that govern the Postal Service are
changed.



18
   Ponemon Institute, LLC is dedicated to advancing responsible information and privacy management practices in
business and government. To achieve this objective, the institute conducts independent research, educates leaders
in the private and public sectors, and verifies the privacy data protection practices of organizations in a variety of
industries.

                                                          13
Assessment of Overall Plant Efficiency 2013                                                      NO-MA-13-007



Title 39 U.S.C. Part 1, Chapter 1, §101 states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states that “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . .the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services . . .”

Plant Consolidations

To determine whether plant consolidations affected mail processing efficiency in
FY 2012, we examined consolidations that occurred in FY 2011. The Postal Service
made progress in reducing the size of the mail processing network in FY 2011 as they
completed 48 full and partial plant consolidations. These 48 consolidations resulted in
39 plants gaining mail volume. 19 As shown in Table 5, six of the seven plant groups
experienced a rise in productivity in the gaining plants from FYs 2011 to 2012, indicating
the consolidation strategy has been generally successful. Group 1 gaining plants
experienced a slight decline in productivity of 1.35 percent. This decline occurred
because even though the eight gaining plants received mail from consolidations, their
overall volume declined and workhour reductions could not keep pace.

                            Table 5. FHP Productivity at 39 Plants
                       Gaining Volume from Consolidations in FY 2011

         Plant           Number of                 FY 2011            FY 2012           Percentage
         Group          Gaining Plants           Productivity       Productivity         Change
           1                  8                     1,105              1,090              -1.35%
           2                  8                     1,017              1,024              0.68%
           3                  6                     1,139              1,162              2.02%
           4                  8                     1,167              1,169              0.15%
           5                  4                     1,317              1,322              0.38%
           6                  3                     1,581              1,620              2.43%
           7                  2                     1,459              1,576              8.02%
     Source: OIG and EDW.

Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. We compared FHP productivity among the seven plant
groupings 20 and determined the median FHP productivity for each group. We
determined that if the 130 plants with below-median FHP productivity in FY 2012
achieved just the median FHP productivity level for each respective plant group, the

19
  There were 39 unique gaining plants because some received volume from more than one of the 48 consolidations.
20
  For this analysis, we used plant groupings based on FY 2010 FHP mail volume. We based savings on FHP mail
volume and based productivity on median performers.

                                                      14
Assessment of Overall Plant Efficiency 2013                                                       NO-MA-13-007



Postal Service could realize more than 14.3 million workhour savings and avoid costs of
over $628 million 21 over 4 years.

For example, if Group 1 plants with below-median FHP productivity increased their
productivity to the median productivity level (1,078 mailpieces per hour), the
Postal Service could save more than 7.7 million workhours — 54.2 percent of the more
than 14 million workhours (see Table 6).

                             Table 6. Baseline Workhour Reductions

                Plant                 Median FHP                Workhour             Percentage of
                Group                 Productivity               Savings             Total Savings
                  1                      1,078                  7,782,966                54.2%
                  2                      1,016                  2,403,728                16.7%
                  3                      1,107                  1,969,106                13.7%
                  4                      1,265                  1,150,863                 8.0%
                  5                      1,347                    730,028                 5.1%
                  6                      1,418                    236,094                 1.6%
                  7                      1,363                     91,612                0.64%
                Total                Not Applicable            14,364,398 22          100.00% 23
      Source: OIG and EDW.

The recommended savings of more than 14 million workhours represent a
15.2 percent decrease in the 94,289,097 workhours used by plants that operated below
the median FHP productivity level in FY 2012, and an 8.6 percent decrease in the
166,350,453 workhours used by all plants (see Table 7).




21
   We based workhour reductions on FY 2012 usage and used the Level 06 salary and fringe FY 2012 clerk rate of
$43.23 per hour and the Level 05 salary and fringe FY 2012 mail handler rate of $45.56 per hour.
22
   Difference due to rounding.
23
   Difference due to rounding.

                                                       15
Assessment of Overall Plant Efficiency 2013                                        NO-MA-13-007




                      Table 7. Opportunity Hour Percentage For Plants With
                               Below-Median Productivity, FY 2012

               Plant               FY 2012 Function 1     Workhour
               Group                Workhour Usage         Savings         Percentage
                  1                    42,591,859         7,782,966          18.3%
                  2                    23,200,216         2,403,728          10.4%
                  3                    13,499,561         1,969,106          14.6%
                  4                     7,112,793         1,150,863          16.2%
                  5                     4,892,126           730,028          14.9%
                  6                     2,281,126           236,094          10.3%
                  7                       711,416            91,612          12.9%
            Total Plants
                                       94,289,097        14,364,398 24        15.2%
           Below-Median
               Total
                                      166,350,453        14,364,398            8.6%
             All Plants
         Source: OIG and EDW.

Potential Sources of Workhour Reductions

We identified four broad categories of potential savings. These categories include
overtime, stand-by time, manual sorting of letters, and manual sorting of flats. Although
not mutually exclusive with the workhour opportunities identified by LDC, the savings
are provided since the Postal Service has established programs to improve these
operational areas (see Table 8).

                          Table 8. Broad Sources of Workhour Reductions

                                                Potential
                Source of Workhour              Workhour For Detailed Explanation,
                    Reduction                   Savings    Click on the Section Title
           Reduce Overtime                       1,231,264 “Overtime Usage”
           Reduce Stand-By Time                    129,132 “Stand-By Time”
           Reduce Manual Sorting of                        “Excess Manual Letter
           Letters                                 540,534 Mail”
           Reduce Manual Sorting of
                                                              “Excess Manual Flat Mail”
           Flats                                    820,998
          Source: OIG analysis.




24
     Difference due to rounding.

                                                    16
Assessment of Overall Plant Efficiency 2013                                      NO-MA-13-007




Overtime Usage

Management decreased overtime at all plants by over 13 percent compared to FY 2011,
and opportunities exist to further reduce overtime. The Postal Service could stabilize
overtime usage and save more than 1.2 million overtime workhours. When
management does not properly monitor and control overtime, the Postal Service incurs
higher labor costs, because these workhours are paid at a higher premium rate.

For example, Group 1 plants operating at above-median FHP productivity levels had an
average overtime percentage rate of 5.25 percent. If all Group 1 plants operated at this
overtime rate, the Postal Service could save 440,874 overtime workhours. Overall, the
Postal Service could save more than 1.2 million overtime workhours if all plants with
below-median FHP productivity reduced their overtime percentages to the average of
the plants with above-median FHP productivity (see Table 9).

                                      Table 9. Overtime Savings

                                               Above-Median
                                               Productivity –        Group
                             Plant            Average Overtime    Workhour
                             Group              Percentage          Savings
                               1                   5.25%            440,874
                               2                   6.23%            263,866
                               3                   6.30%            180,294
                               4                   6.29%            157,997
                               5                   5.91%            141,061
                               6                   8.13%             13,310
                               7                  10.08%             33,863
                             Total             Not Applicable     1,231,264 25
                   Source: OIG and EDW.

Stand-By Time

Plants operating at below-median FHP productivity levels generally used a higher
amount of stand-by time. This indicates that management may not be properly
scheduling and staffing employees to match the workload. As an example, Group 1
plants with above-median FHP productivity levels used .08 percent of workhours in
stand-by time operations and Group 1 plants below the median used .17 percent of
workhours in stand-by time operations. If Group 1 plants below the median achieve the
average stand-by time percentage of above-median plants, the Postal Service would
realize savings of more than 55,000 workhours. Further, if below the median plants in
each plant group achieve the average stand-by time percentage of the above-median
plants, the Postal Service could save more than 129,000 workhours (see Table10).

25
     Difference due to rounding.

                                                  17
Assessment of Overall Plant Efficiency 2013                                  NO-MA-13-007



                               Table 10. Stand-By Time Savings

                                              Above-Median
                                              Productivity –     Group
                         Plant                Stand-By Time    Workhour
                         Group                 Percentage       Savings
                           1                      0.08%          55,736
                           2                      0.05%          28,564
                           3                      0.23%          10,035
                           4                      0.41%          14,572
                           5                      0.16%           2,529
                           6                      0.16%          16,545
                           7                      0.05%           1,151
                         Total                Not Applicable    129,132
                  Source: OIG and EDW.

Excess Manual Letter Mail

Plants operating at below-median FHP productivity levels generally worked an
excessive amount of letter mail manually. The Postal Service’s manual sort target is 2.5
percent of the total letter volume. However, in FY 2012, plants with below-median FHP
productivity sorted an excess of more than 397 million letters manually. The largest
volume of excess manual letters was at Group 1 plants. The Postal Service could save
540,534 workhours by using automation rather than manual methods to sort letter mail
(see Table 11).




                                                    18
Assessment of Overall Plant Efficiency 2013                                 NO-MA-13-007



                                    Table 11. Excess Manual Letters

                                             Excess Manual
                                             Letters Worked
                                              More Than 2.5       Group
                              Plant          Percent of Total   Workhour
                             Group            Letter Volume      Savings
                                1              107,411,147       146,037
                                2               92,002,964       125,088
                                3               41,546,873        56,487
                                4               33,038,939        44,920
                                5              101,446,883       137,928
                                6               17,504,178        23,799
                                7                4,614,818         6,274
                             Total 26          397,565,804       540,534
                      Source: OIG and EDW.

Excess Manual Flat Mail

Plants operating at below-median FHP productivity levels also generally worked an
excessive amount of flat mail manually. The Postal Service’s manual sort target is 6
percent of the total flat volume. However, in FY 2012, plants with less than median FHP
productivity sorted an excess of 420 million flats manually. The largest volume of
excess manual flats was at Group 1 plants. The Postal Service could save 820,998
workhours by using automation to sort flat mail instead of manual sorting (see
Table 12).




26
     Differences due to rounding.

                                                     19
Assessment of Overall Plant Efficiency 2013                                   NO-MA-13-007



                                    Table 12. Excess Manual Flats

                                             Excess Manual
                                              Flats Worked
                                                More than           Group
                            Plant           6 Percent of Total    Workhour
                            Group              Flat Volume         Savings
                              1                119,131,244         236,361
                              2                 91,652,074         181,841
                              3                 69,463,514         137,818
                              4                 42,184,803          83,696
                              5                 58,808,124         116,678
                              6                 11,961,909          23,733
                              7                 27,368,297          40,871
                            Total             420,569,964 27       820,998
                   Source: OIG and EDW.

Human Resources

As of January 2013, 13,877 employees at plants with below-median productivity levels
were eligible to retire. This represents a potential annual reduction of more than
24 million workhours if these employees retired (see Tables 13 and 14).

                              Table 13. Potential Complement Reduction
                                       for Below-Median Plants

                                         Total                   Percentage
                            Plant     Function 1    Retirement    of Total
                            Group     Employees      Eligible    Employees
                              1         21,281         6,369        30%
                              2         13,007         3,689        28%
                              3          7,058         2,059        29%
                              4          3,556           929        26%
                              5          2,112           527        25%
                              6            992           243        24%
                              7            289            61        21%
                            Total       48,295        13,877        29%
                        Source: OIG and WebCOINS.




27
     Difference due to rounding.

                                                    20
Assessment of Overall Plant Efficiency 2013                                        NO-MA-13-007




                              Table 14. Potential Workhour Reduction
                                     for Below-Median Plants 28

                                         Total           Retirement   Percentage
                         Plant        Function 1           Eligible    of Total
                         Group        Workhours          Workhours    Workhours
                           1          37,028,940         11,082,060      30%
                           2          22,632,180          6,418,860      28%
                           3          12,280,920          3,582,660      29%
                           4           6,187,440          1,616,460      26%
                           5           3,674,880            916,980      25%
                           6           1,726,080            422,820      24%
                           7             502,860            106,140      21%
                         Total        84,033,300         24,145,980      29%
                      Source: OIG and WebCOINS.




28
     We based workhour savings on 1,740 workhours per year.

                                                       21
Assessment of Overall Plant Efficiency 2013                                      NO-MA-13-007




     Appendix B: Sources of Workhour Reduction by Labor Distribution Code

We identified potential sources for improving efficiency. These sources are listed by
each major mail processing operation LDC. These potential workhour savings represent
10,544,879 workhours, or more than 73 percent of the recommended workhour savings
(see Table 15).

                   Table 15. Potential Sources of Workhour Reductions

                                              Potential
           Source of Workhour                 Workhour   For Detailed Explanation,
                Reduction                     Savings      Click on Section Name
       Improve Efficiency in LDC 11                      “Automated Letter Mail
       Operations                              2,740,369 Processing”
                                                         “Mechanized and
       Improve Efficiency in LDC 12
                                                         Automated Flat Mail
       Operations
                                                 753,726 Processing”
       Improve Efficiency in LDC 14
                                                           “Manual Operations”
       Operations                              2,706,109
       Improve Efficiency in LDC 17
                                                           “Allied Operations”
       Operations                              3,303,510
       Improve Efficiency in LDC 18                      “Indirect/Related
       Operations                              1,041,165 Operations”
       Total                                  10,544,879
       FHP Productivity Savings                          "Appendix A, Efficiency of
                                              14,364,398 Operations"
       Percentage of FHP Savings                  73.4%
      Source: OIG analysis.

Automated and Mechanized Equipment

Plants that operated at below-median FHP productivity levels generally had lower
productivity in automated and mechanized operations. If all plants with below-median
FHP productivity increased the mailpieces handled per hour to the average of the plants
with above-median FHP productivity, the Postal Service could save more than
2.7 million workhours in automated operations and more than 753,000 workhours in
mechanized operations. In addition, plants with below-median productivity levels
generally had higher jams per 10,000 pieces on the DBCS and on the AFSM 100.
Further, plants with below-median productivity levels generally had higher reject rates
on the AFSM 100. This indicates that procedures for jogging and edging the mail may
need improvement.




                                                22
Assessment of Overall Plant Efficiency 2013                                  NO-MA-13-007



Automated Letter Mail Processing - LDC 11

Plants that operate at below-median FHP productivity levels generally had lower
productivity in LDC 11. For example, Group 1 plants operating at above-median FHP
productivity had an average LDC 11 productivity of 3,944 mailpieces per hour. If all
Group 1 plants operated at this productivity level, the Postal Service could save more
than 1.4 million workhours. Further, the Postal Service could save more than 2.7 million
workhours if all plants with below-median FHP productivity levels increased the pieces
handled per hour in LDC 11 operations to the average of the plants with above-median
FHP productivity (see Table 16).

                        Table 16. Automated Letter Mail Processing LDC 11
                                             FY 2012

                                          Above-Median         Group
                         Plant            Productivity –     Workhour
                         Group           Average LDC 11       Savings
                           1                  3,944          1,440,110
                           2                  3,494            310,923
                           3                  3,821            494,317
                           4                  4,282            289,004
                           5                  4,632            140,107
                           6                  4,438             48,229
                           7                  4,947             17,680
                         Total           Not Applicable      2,740,369 29
                  Source: OIG and EDW.

Mechanized and Automated Flat Mail Processing - LDC 12

Plants with below-median FHP productivity levels also generally had lower LDC 12
productivity. For example, Group 3 plants operating at above-median FHP productivity
had an average LDC 12 productivity of 2,163 mailpieces per hour. If all Group 3 plants
operated at this productivity level, the Postal Service could save 103,728 workhours.
Further, the Postal Service could save 753,726 workhours if all plants with
below-median FHP productivity levels increased the mailpieces handled per hour in
LDC 12 operations to the average of the plants with above-median FHP productivity
levels (see Table 17).




29
     Difference due to rounding.

                                                  23
Assessment of Overall Plant Efficiency 2013                                         NO-MA-13-007




                           Table 17. Mechanized and Automated Flat Mail
                                    Processing LDC 12, FY 2012

                                              Above-Median               Group
                            Plant             Productivity –           Workhour
                            Group            Average LDC 12            Savings
                              1                   1,891                 318,632
                              2                   2,067                 172,995
                              3                   2,163                 103,728
                              4                   1,767                 106,569
                              5                   1,871                  31,514
                              6                   1,608                  15,792
                              7                   1,710                   4,497
                            Total            Not Applicable            753,726 30
                    Source: OIG and EDW.

Throughput, Jam Rates, and Reject Rates

The average throughput for the DBCS and the AFSM 100 was lower at Group 1 plants
with below-median FHP productivity than at plants with above-median FHP productivity.
In addition, the DBCS and the AFSM 100 jam rate was higher in plants with
below-median FHP productivity and the reject rate for the AFSM 100 was also higher in
plants with below-median FHP productivity levels. These trends indicate that
management at these plants may not be properly instructing employees on procedures
for jogging and edging the mail. In addition, equipment at these plants may not be
properly or sufficiently maintained (see Tables 18 and 19).

                              Table 18. Group 1 DBCS Machines, FY 2012

                                   Group 1         Average     Jam        Reject
                                    Plants        Throughput   Rate        Rate
                            Above-Median            35,730     2.01       1.07%
                            Below-Median            35,528     2.28       1.04%
                             Difference              202       -0.27      0.03%
                         Source: OIG and nMARS.




30
     Difference due to rounding.

                                                      24
Assessment of Overall Plant Efficiency 2013                                  NO-MA-13-007




                            Table 19. Group 1 AFSM 100 Machines
                                          FY 2012

                         Group 1               Average     Jam     Reject
                          Plants              Throughput   Rate     Rate
                       Above-Median             14,509     18.45    2.25%
                       Below-Median             14,359     21.82    2.55%
                        Difference                150      -3.37   -0.30%
                    Source: OIG and nMARS.

Manual Operations

Opportunities to improve efficiency in manual operations were twofold:

   Plants with below-median FHP productivity also had lower productivity in manual
    operations.

   Management did not take full advantage of automated and mechanized equipment
    and; consequently, worked an excessive amount of mail manually.

Manual Operations - LDC 14

Plants with below-median FHP productivity also had lower productivity in
LDC 14. For example, Group 1 plants operating at above-median FHP productivity had
an average LDC 14 productivity of 562 mailpieces per hour. If all Group 1 plants
operated at this productivity level, the Postal Service could save more than 1.6 million
workhours. Further, the Postal Service could save more than 2.7 million workhours if all
plants with below-median FHP productivity levels increased the mailpieces handled per
hour in LDC 14 operations to the average of the plants with above-median FHP
productivity levels (see Table 20).




                                                  25
Assessment of Overall Plant Efficiency 2013                                  NO-MA-13-007



                             Table 20. Manual Operations LDC 14
                                           FY 2012

              Plant          Above-Median Productivity –   Group Workhour
              Group               Average LDC 14               Savings
                1                       562                   1,687,411
                2                       475                     382,747
                3                       520                     165,776
                4                       554                     113,161
                5                       719                     150,517
                6                       906                     118,173
                7                      1,205                     88,324
              Total                Not Applicable             2,706,109
         Source: OIG and EDW.

Allied Operations - LDC 17

Plants with below-median FHP productivity levels used a greater percentage of
workhours in allied operations LDC 17 than plants with above-median FHP productivity
levels. As an example, Group 1 plants with above-median FHP productivity levels used
36 percent of workhours in LDC 17. If all Group 1 below-median plants used 36 percent
of workhours in allied operations, the Postal Service could reduce workhours by almost
1.3 million. Further, if all below-median plant groups achieve the average percentage of
workhours in allied operations of the above-median plants, the Postal Service could
save more than 3.3 million workhours (see Table 21).




                                              26
Assessment of Overall Plant Efficiency 2013                                            NO-MA-13-007



                                   Table 21. Allied Operations LDC 17
                                                  FY 2012

                                          Above-Median
                                         Average LDC 17
                                        Percentage to Total               Group
                    Plant                Mail Processing                Workhour
                    Group                   Workhours                    Savings
                      1                        36%                      1,293,792
                      2                        34%                      1,117,067
                      3                        34%                        474,633
                      4                        35%                        201,385
                      5                        38%                         98,146
                      6                        35%                         97,317
                      7                        38%                         21,169
                    Total                 Not Applicable                3,303,510 31
          Source: OIG and EDW.

Indirect/Related Operations - LDC 18

Plants with below-median FHP productivity levels used a greater percentage of
workhours in indirect/related operations LDC 18 than plants with above-median FHP
productivity levels. As an example, Group 1 plants with above-median FHP productivity
levels used 7 percent of workhours in LDC 18. If all Group 1 below-median plants used
7 percent of workhours in indirect/related operations, the Postal Service could reduce
workhours by more than 200,000. Further, if all below-median plants in each group
achieve the average percentage of workhours in indirect/related operations of the
above-median plants, the Postal Service could save more than 1 million workhours (see
Table 22).




31
     Difference due to rounding.

                                                   27
Assessment of Overall Plant Efficiency 2013                               NO-MA-13-007



                        Table 22. Indirect/Related Operations LDC 18
                                            FY 2012

                              Above-Median Average LDC 18           Group
            Plant                  Percentage to Total            Workhour
            Group              Mail Processing Workhours           Savings
              1                            7%                       208,593
              2                            6%                       360,819
              3                            6%                       281,959
              4                            6%                        89,718
              5                            6%                        40,492
              6                            5%                        51,819
              7                            7%                         7,765
            Total                    Not Applicable               1,041,165
       Source: OIG and EDW.




                                              28
Assessment of Overall Plant Efficiency 2013                                                          NO-MA-13-007




                                     Appendix C: Monetary Impact

To calculate total questioned costs, we determined the median FHP productivity for
each group and found that 130 plants throughout the country operated at below-median
FHP productivity. If these plants achieved just the median productivity level for each
respective plant group, the Postal Service could realize workhour savings of 14,364,398
and avoid costs of $628,670,104 annually.

         Recommendation                           Impact Category                          Amount
               1                                  Questioned Costs32                     $628,670,104




32
  Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etcetera. May be
recoverable or unrecoverable. Usually a result of historical events.




                                                         29
Assessment of Overall Plant Efficiency 2013                    NO-MA-13-007



                           Appendix D: Management's Comments




                                              30
Assessment of Overall Plant Efficiency 2013        NO-MA-13-007




                                              31
